INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate (APR)
for Purchases

11.50% - 17.90% when you open your account, based on
your creditworthiness. This APR will vary with the market based on the Prime
Rate.

APR for Balance Transfers

11.50% - 17.90% based on your creditworthiness. This
APR will vary with the market based on the Prime Rate.

APR for Cash Advances

16.50% - 17.90% based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.
17.90%
This APR may be applied to your account if you:

Penalty APR and When It Applies

1) Make your payment 60 days late or:
2) A returned payment causes your account to become 60 days late.
How long will the Penalty APR apply? If your APRs are increased for
either of these reasons, the Penalty APR will apply until you make six
consecutive minimum payments beginning with the statement cycle
immediately following the event that triggered the Penalty APR, provided you
do not exceed your credit limit during that time period.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you interest on purchases and balance transfers if you pay your
entire balance by the due date each month and your previous balance is zero
or a credit balance. We will begin charging interest on cash advances and
convenience checks on the date they are posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using
a credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

FEES
Annual Fee

None

Transaction Fees
 Balance Transfer
 Cash Advance
 Foreign Transactions

None
None
None

Penalty Fees
 Late Payment
 Returned Payment

Up to $25 imposed 15 days after the due date.
Up to $20.

How We Will Calculate Your Balance: We use a method called “average adjusted daily balance (including new
purchases).” See your account agreement for more details.
Other Fees: Rush Card: $20; Stop Payment: $15 for Convenience Checks or Balance Transfers.
Penalty APR: We may apply the Penalty APR if your payment is 60 days late.

